No. 20-5904
IN THE

Supreme Court of the United States
TARAHRICK TERRY,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
On Writ of Certiorari to the United States
Court of Appeals for the Eleventh Circuit
CERTIFICATE OF SERVICE
I, Gerard J. Cedrone, counsel of record and a member of the Bar of this Court,
certify pursuant to Supreme Court Rules 29.3 and 29.5 (as modified by the Court’s
Order of April 15, 2020) that I have, this 19th day of February, 2021, served the
Brief of Retired Federal Judges, Former Federal Prosecutors, and the National
Association of Criminal Defense Lawyers as Amici Curiae in Support of Petitioner
upon each party separately represented in this proceeding by causing an electronic
copy of the same to be delivered to counsel of record at the addresses listed below:
ANDREW LEE ADLER
andrew_adler@fd.org

ELIZABETH B. PRELOGAR
SupremeCtBriefs@usdoj.gov

Counsel of Record for Petitioner

Counsel of Record for Respondent

Pursuant to the Court’s April 15 Order, I certify that all parties have agreed
to accept such electronic service in lieu of service of paper copies. I further certify
that all persons required to be served have been served.

In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of the brief to be filed with the Clerk.

February 19, 2021

/s/ Gerard J. Cedrone
GERARD J. CEDRONE
GOODWIN PROCTER LLP
100 Northern Avenue
Boston, MA 02210
gcedrone@goodwinlaw.com
(617) 570-1849
Counsel of Record for Amici Curiae

